                                                                  Issue Date
                                                                         June 8, 2007
                                                                  Audit Report Number
                                                                         2007-LA-1013




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
              Development, 9DD




FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Los Angeles Homeless Services Authority, Los Angeles, California, Did
         Not Perform On-Site Fiscal Monitoring of Its Project Sponsors

                                    HIGHLIGHTS

 What We Audited and Why

      We audited the Los Angeles Homeless Services Authority (Authority) in light of
      publicity, which alleged mismanagement and misuse of U.S. Department of Housing and
      Urban Development (HUD) funding. Our audit objectives were (1) to determine whether
      the Authority adequately monitored its project sponsors to ensure compliance with HUD
      regulations and (2) to determine whether the project sponsors administered their
      Supportive Housing Program grants in compliance with grant agreements and other HUD
      program requirements.

 What We Found


      The Authority did not perform on-site fiscal monitoring of its project sponsors during the
      past two years. It also did not properly perform its 100 percent source documentation
      desk review for at least two of its project sponsors to ensure that cash match funding was
      eligible and supported. Of the two project sponsors reviewed, one had applied ineligible
      expenses as cash match, while the other was unable to support its cash match due to a
      poor financial management system. We attributed these deficiencies to the Authority’s
      lack of capacity to comply with HUD requirements while under the management of the
      former executive director. As a result, the Authority failed to ensure that HUD grants
      were spent in accordance with requirements and that the effectiveness of the grant
      activities was fully maximized as intended by HUD.

What We Recommend


      We recommend that HUD require the Authority to comply with HUD’s requirements
      regarding on-site fiscal monitoring of its project sponsors, reexamine its desk review
      procedures to ensure that reviews are performed to adequately monitor its project
      sponsors’ cash match, reevaluate its current risk analysis matrix to better identify the
      more problematic project sponsors, and establish and implement written monitoring
      procedures.

 Auditee’s Response


      We provided our discussion draft report to the Authority on May 23, 2007, and held an
      exit conference on May 29, 2007. The Authority agreed with our report findings.

      The complete text of the auditee’s response, along with our evaluation of that response,
      can be found in appendix A of this report.




                                               2
                               TABLE OF CONTENTS


Background and Objectives                                                         4

Results of Audit
      Finding 1: The Authority Did Not Perform On-Site Fiscal Monitoring of Its   6
      Supportive Housing Program Project Sponsors during the Past Two Years


Scope and Methodology                                                             12

Internal Controls                                                                 13

Appendixes
   A. Auditee Comments                                                            14
   B. Criteria                                                                    15




                                            3
                     BACKGROUND AND OBJECTIVES

The Supportive Housing Program is authorized under Title IV of the McKinney-Vento Homeless
Assistance Act (United States Code 11381-11389). The program is designed to promote the
development of supportive housing and services, including innovative approaches to assist
homeless persons in the transition from homelessness, and to promote the provision of
supportive housing for homeless persons to enable them to live as independently as possible.
Eligible activities include transitional housing, permanent housing for homeless persons with
disabilities, innovative housing that meets the intermediate and long-term needs of homeless
persons, and supportive services for homeless persons not provided in conjunction with
supportive housing.

The Los Angeles Homeless Services Authority (Authority) was established in 1993 by a joint
powers agreement between the City and County of Los Angeles (City/County) to coordinate
services for homeless people in the area. As a pass-through entity, the Authority’s primary
function is to administer and manage the distribution of federal funds it receives from the U.S.
Department of Housing and Urban Development’s (HUD) Supportive Housing Program, the City
Housing Department, and the County Community Development Commission’s distribution of
Community Development Block Grant and Emergency Shelter Grant funds.

According to the Authority’s own tracking system, there were 137 active grants totaling $40.6
million for the Supportive Housing Program as of January 2007. The majority of the grants were
subcontracted out to 60 community nonprofit agencies called project sponsors. In addition to
these grants, for the fiscal year 2006-2007, the City Housing Department awarded the Authority
an estimated $9.2 million in Community Development Block Grant and $3.1 million in
Emergency Shelter Grant funds, while the County Community Development Commission
awarded approximately $285,000 in Community Development Block Grant and $1.3 million in
Emergency Shelter Grant funds.

In July 2005, the City and County conducted a joint assessment of the Authority as a result of
complaints from the Authority’s project sponsors reporting significant delays in receiving
payments for services. In addition, City and County departments noted delays in contract
execution and problems with the Authority’s grant claiming process. The purpose of the
assessment was to provide an overview of the Authority’s current fiscal problems and make
specific recommendations to correct them. The joint assessment reported four findings with
seven recommendations, which the Authority’s new management adequately addressed;
corrective action is expected to be completed by June 30, 2007.

When we started our audit in January 2007, one of our initial objectives was to determine
whether the allegations in recent newspaper articles regarding the mismanagement, misuse, and
commingling of federal funds were accurate. Specifically, the article stated that the Authority
used $1.7 million in federal funds to bail out other programs by making improper transfers from
federal funds to pay emergency bills when the proper funds were not accessible. Based on our
testing, we concluded that the Authority did not commingle or use HUD funds to pay for non-
project-related expenses. Project sponsor funds were adequately segregated in the Authority’s


                                                4
books and records and were paid directly to the project sponsor that made the initial drawdown
request. Further, during the City, County, and the Authority reconciliation of all project funds,
the County auditor in charge of the assignment informed us that all funds, including HUD
Supportive Housing Program grants, were accounted for and no misuse took place. Based on our
testing, we confirmed that this issue was resolved and focused the remainder of our audit on our
two other objectives, which were (1) to determine whether the Authority adequately monitored
its project sponsors to ensure compliance with HUD regulations and (2) to determine whether the
project sponsors administered their Supportive Housing Program grants in compliance with grant
agreements and other HUD program requirements.




                                               5
                                RESULTS OF AUDIT

Finding 1: The Authority Did Not Perform On-Site Fiscal Monitoring of
Its Supportive Housing Program Project Sponsors during the Past Two
Years
The Authority did not perform on-site fiscal monitoring of its project sponsors during the past
two years. It also did not properly perform its 100 percent source documentation desk review of
at least two of its project sponsors’ cash match funding to ensure that it was eligible and
supported. Of the two project sponsors reviewed, one had applied ineligible expenses as cash
match, while the other was unable to support its cash match due to a poor financial management
system. We attributed these deficiencies to the Authority’s lack of capacity to comply with HUD
requirements while under the management of the former executive director. As a result, the
Authority failed to ensure that HUD grants were spent in accordance with requirements and that
the effectiveness of the grant activities was fully maximized as intended by HUD.



 The Authority Did Not Perform
 On-Site Fiscal Monitoring of its
 Project Sponsors as Required


       Contrary to 24 CFR [Code of Federal Regulations] 85.40(a) (see appendix B), the
       Authority did not perform on-site fiscal monitoring of its project sponsors during the past
       two years. Based on a sample, we selected the first two of the Authority’s project
       sponsors that were awarded the most HUD Supportive Housing Program grant funds, A
       Community of Friends and Homes for Life Foundation (Foundation), and determined that
       they claimed ineligible and unsupported expenses as cash match, respectively.

       Ineligible Cash Match

       Office of Management and Budget Circular A-110, subpart C, section 23(a)(6), states that
       all contributions shall be accepted as part of the recipient’s matching when such
       contributions are provided for in the approved budget when required by the federal
       awarding agency.

       A Community of Friends operates 12 supportive services/operations and four
       construction/rehabilitation HUD Supportive Housing Program projects totaling $5.3
       million. Our on-site review disclosed that A Community of Friends inappropriately
       applied expenses that were not listed in its technical submissions as eligible Supportive
       Housing Program-supportive services activities and not directly associated with the grant
       as cash match. We reviewed the invoices of three grants to verify that the cash match



                                                6
requirements were met and identified material deficiencies with A Community of
Friends’ cash match application and documentation for all three grants. Illustrated below
are specific examples for each project:

      CA16B300012 (Brandon Apartments) – A Community of Friends claimed the
       expenses for the purchase and installation of security cameras for Brandon
       Apartments ($15,555) and Figueroa Court ($3,990) as cash match for the Brandon
       Apartments project. Neither security cameras nor their installation are listed as
       eligible Supportive Housing Program-supportive service items on both Brandon
       Apartments’ and Figueroa Court’s technical submissions; therefore, those
       expenses are ineligible for cash match.

      CA16B400002 (California Hotel) – A Community of Friends applied $460 of
       $1,150 in mileage and cell phone allowances as cash match to the California
       Hotel project. The expense report for the mileage and cell phone allowance did
       not indicate that charges were project related. The technical submission did not
       list mileage or personal cell phone allowances as approved supportive service
       expenses. For costs to be eligible as match, they must be approved supportive
       service items that benefit the California Hotel project.

      CA16B500003 (Figueroa Court) – A Community of Friends applied a portion of
       the salary made by a residential services coordinator to the Figueroa Court project
       as cash match. For the period March 1 through October 31, 2006, the coordinator
       for outreach earned a salary of $27,388, of which $3,042 (or 11.1 percent) was
       applied as cash match to the November 2006 drawdown for Figueroa Court.
       However, the timesheets showed no allocation of this employee’s work toward
       the Figueroa Court project. Instead, it showed that his time was allocated to other
       projects, including Las Palomas, another A Community of Friends project
       receiving Supportive Housing Program funding.

We are conducting a separate audit of A Community of Friends to determine the extent of
the cash match deficiencies. If the Authority had conducted on-site fiscal monitoring as
required, it may have detected the problem, and taken corrective actions.

We also noted that the Authority’s desk review practices were inadequate to detect a
problem with the cash match. The director of finance and accounting at A Community of
Friends informed us that the cash match detail documentation for the entire grant year
was not requested as part of the drawdown request package until January 30, 2007,
shortly after we began our audit of the Authority. A Community of Friends typically
submitted only a summary document to show that it met its cash match (as shown below)
but never any supporting documentation to further explain the line items of the match.
During its desk review, it is evident that the Authority only verified that the 25 percent
match was met and did not explore in further detail whether the expenses were eligible
under the technical submission, indicating a deficiency in its review process.




                                        7
Unsupported Cash Match

24, CFR [Code of Federal Regulations] 85.20(b)(2) requires grantees and subgrantees to
maintain records that are verifiable and adequately identify the source and application of
funds for financially assisted activities. Office of Management and Budget Circular A-
110, subpart C, requires all cash match contributions to be verifiable from the recipient’s
records.

The Foundation operates seven supportive services and two construction/rehabilitation
HUD Supportive Housing Program grants totaling $2.5 million. We could not track or
determine the source of the cash match claimed due to the Foundation’s outdated
financial accounting system, use of a single checking account which commingled all
grant funds and rental income received, and the lack of a reasonable allocation base to
distribute expenses among multisource-funded grants. When we spoke with the
accounting and asset manager, who prepares the voucher requests submitted to the
Authority for review along with the supporting documentation, he could not provide us
with a more detailed source of the claimed cash match funds; therefore, those funds are
unsupported. We do not know the extent of the unsupported cash match; however, it
appears to be a systemic problem shared among all of the Foundation’s Supportive
Housing Program grants. We will conduct a separate review of the Foundation to
determine the extent of the deficiencies.

Because the Authority did not carry out its responsibility of performing an on-site fiscal
monitoring review of the Foundation, it was not aware of the state of the Foundation’s
financial accounting system, operation under a single checking account, and lack of an
allocation base. Further, the accounting and asset manager informed us that the
Authority did not request detailed sources of cash match until after we began our audit,
similar to the situation at A Community of Friends. He also stated that the Authority
requested that information for only one of the grants (CA16B400051, Athena project),
and it is probable that the remaining six grants are not being reviewed with the same
scrutiny as the Athena project grant (CA16B400051). Before the Authority requested



                                         8
additional information submitted by the Foundation for the Athena project, the
Foundation would only submit a spreadsheet (shown below) without any detailed
information to verify its source of funds. Clearly, the Authority did not properly fulfill its
desk review responsibilities relating to cash match.




We also noted that in an audit of another Authority project sponsor, the Institute of Urban
Research and Development (Institute) (audit report number 2006-LA-1015) issued in July
2006, we found, among other deficiencies, that the Institute could not document that it
provided $181,020 in required cash match funds. Consequently, we recommended that
the Authority ensure that it had adequate monitoring procedures in place to monitor its
grant activities to identify problems in a more timely manner.

With the exception of not conducting on-site program monitoring in 2005, the Authority
typically monitored each project sponsor every year. However, it failed to perform on-
site fiscal monitoring of its project sponsors during the past two years (2005 and 2006)
and based on our review, it did not properly conduct its 100 percent desk review of cash
match claimed by project sponsors. The chief operating officer informed us that
monitoring was planned for the end of March 2007, but we had not been able to confirm
that information at the time of this report. The chief operating officer attributed the
Authority’s failure to perform fiscal on-site monitoring to the lack of stable leadership
within the finance department and lack of experienced staff to carry out the monitoring of
its project sponsors. Although those are contributing factors, it is clear that the Authority,
under the management of the former executive director, ignored and lacked the capacity
to comply with HUD requirements by not taking the initiative to properly remedy the
situation when first presented in the audit of the Institute.

Inadequate Risk Analysis Matrix

The Authority did not have written monitoring (desk and on-site) procedures. However,
it designed a risk analysis matrix to provide an objective assessment to identify the



                                          9
     project sponsors most likely at risk for noncompliance with contractual and federal
     regulations. The assigned risk rating allows the fiscal staff to prioritize those projects
     most in need of formal monitoring. The rating is based on the assessment of five
     elements: agency capacity, record retention, submission of fiscal documentation, past
     monitoring, and recent problems. Scoring a “high” or “medium” will result in an annual
     monitoring of the project sponsor, while a “low” score will be monitored less frequently,
     perhaps every two years. For fiscal year 2006-2007, only 5 of 60 project sponsors scored
     a “high” level. A Community of Friends and the Foundation scored a “low.” However,
     based on the results of our on-site review, A Community of Friends and the Foundation
     should have scored at least a “medium” given the gravity of the cash match issue
     identified. The disparity can be attributed to the design of the Authority’s risk analysis
     matrix, which did not detect problem indicators for cash match by individual grants.
     Rather, the risk is calculated by taking the average of all grants received by project
     sponsor. By not including cash match criteria on the matrix, the risk assessment matrix
     did not appropriately capture all risk elements related to aging compliance, resulting in an
     inaccurate risk assignment.

Conclusion


     The Authority did not perform on-site fiscal monitoring of its project sponsors during the
     past two years. It also did not adequately perform its desk review of at least two of its
     project sponsors’ cash match supporting documentation. These violations occurred
     because the Authority, under the management of the former executive director, did not
     comply with HUD requirements. Consequently, the Authority failed to ensure that HUD
     grants were spent in accordance with requirements and that the effectiveness of the grant
     activities was fully maximized as intended by HUD.




                                             10
Recommendations



    We recommend that the director of the Los Angeles Office of Community Planning and
    Development require the Authority to

    1A.      Comply with HUD’s policies and procedures regarding on-site fiscal monitoring
    of its project sponsors.

    1B.    Reexamine its desk review procedures to ensure that the reviews are performed to
    adequately monitor its project sponsors’ cash match.

    1C.     Revise its risk analysis matrix to better measure and evaluate the project sponsors
    it needs to more frequently monitor to ensure that federal awards are used for authorized
    purposes in compliance with laws, regulations, and provisions of contracts or grant
    agreements.

    1D.    Establish and implement written monitoring procedures to ensure that grant funds
    are used in accordance with HUD requirements.




                                            11
                            SCOPE AND METHODOLOGY

We performed our audit work from January through April 2007 at the Authority and two of its
project sponsors (A Community of Friends and the Foundation), all located in the Los Angeles,
California, area. Our audit generally covered the period December 2004 through January 2007.
We expanded our scope when necessary.

To accomplish our audit objectives, we

   •   Reviewed applicable HUD regulations and Office of Management and Budget Circulars.

   •   Reviewed HUD’s Los Angeles Office of Community Planning and Development grant
       files associated with Supportive Housing Program grants received by the Authority and
       interviewed appropriate personnel.

   •   Selected and reviewed two Supportive Housing Program sponsors due to the high dollar
       amounts of the grants associated with the Authority’s program and noted a large number
       of cash match deficiencies with these sponsors during our review. The total authorized
       amount awarded to A Community of Friends was $4.6 million and to the Foundation was
       $2.5 million. The Authority had $40.6 million in active grants as of our audit.

   •   Obtained an understanding of the Authority’s procedures, including its controls to ensure
       that it properly administers its Supportive Housing Program. We obtained an
       understanding of A Community of Friends’ and the Foundation’s operations and internal
       controls.

   •   Interviewed Authority, A Community of Friends, and Foundation management and staff
       to acquire an understanding of the Authority and its relationship with its project sponsors,
       along with the procedures that are currently in place.

   •   Performed site reviews of two of the Authority’s project sponsors to determine whether
       they were adequately monitored and understood the requirements of the grant agreement
       and other regulations and, most importantly, whether they followed those requirements.

   •   Reviewed project sponsors’ payroll data, cost eligibility, and cash match accounts.

   •   Reviewed a sample of A Community of Friends’ client files to verify homeless eligibility
       and determine the nature and extent of supportive services provided.

   •   Reviewed the City and County joint assessment to determine whether it identified any
       findings or concerns that pertain to the scope of our survey work.

   We performed our review in accordance with generally accepted government auditing
   standards.



                                                12
                                INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

               •   Policies and procedures that management has implemented to ensure accurate,
                   current, and complete disclosure of financial results.

               •   Policies and procedures that management has implemented to reasonably
                   ensure that its Supportive Housing Program grants are carried out in
                   accordance with applicable laws and regulations.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.


 Significant Weaknesses


   Based on our review, we believe the following item is a significant weakness:

           •   The Authority did not have sufficient controls in place to ensure that its
               Supportive Housing Program grants were monitored in accordance with
               applicable laws and regulations (finding 1).




                                                13
                        APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation     Auditee Comments

Comment 1




                           14
Appendix B
                                       CRITERIA

  A. 24 CFR [Code of Federal Regulations] 85.40(a) states that grantees are responsible for
     managing the day-to-day operations of grant and subgrant activities. Grantees must
     monitor grant- and subgrant-supported activities to assure compliance with applicable
     federal requirements and that performance goals are being achieved. Grantee monitoring
     must cover each program, function, or activity.

  B. Office of Management and Budget Circular A-133, Audits of States, Local
     Governments, and Nonprofit Organizations, subpart D, section 400(d), states: “A
     pass-through entity shall perform the following for the federal awards it makes: …(2)
     advise subrecipients of requirements imposed on them by the federal laws, regulations,
     and the provisions of contracts or grant agreements as well as any supplemental
     requirements imposed by the pass-through entity; (3) Monitor the activities of
     subrecipients as necessary to ensure that federal awards are used for authorized purposes
     in compliance with laws, regulations, and the provisions of contracts or grant agreements,
     and that performance goals are achieved.”

  C. 24 CFR [Code of Federal Regulations] 85.20(a)(2) states that fiscal control and
     accounting procedures of the state, as well as its subgrantees and cost-type contractors,
     must be sufficient to permit the tracing of funds to a level of expenditures adequate to
     establish that such funds have not been used in violation of the restrictions and
     prohibitions of applicable statutes. Paragraph (b)(2) states that the financial management
     system of grantees and subgrantees must meet the following standards: grantees and
     subgrantees must maintain records which adequately identify the source and application
     of funds provided for financially assisted activities.

  D. 24 CFR [Code of Federal Regulations] 85.24(b)(6) states that costs counting toward
     satisfying a cost sharing or matching requirement must be verifiable from the records of
     grantees and subgrantees.

  E. Office of Management and Budget Circular A-110, Uniform Administration
     Requirements for Grants and Agreements with Institutions of Higher Education,
     Hospitals, and Other Nonprofit Organizations, subpart C, section 23(a), states that
     all contributions, including cash and third party in-kind, shall be accepted as part of the
     recipient’s cost sharing or matching when such contributions meet all the following
     criteria:

             (1) Are verifiable from the recipient’s records;
             (2) Are not included as contributions for any other federally assisted project or
             program;
             (3) Are necessary and reasonable for proper and efficient accomplishment of
             project or program objectives;




                                               15
       (4) Are allowable under the applicable cost principles;
       (5) Are not paid by the federal government under another award, except where
       authorized by federal statute to be used for cost sharing or matching;
       (6) Are provided for in the approved budget when required by federal awarding
       agency; and
       (7) Conform to other provisions of this circular, as applicable.

Subpart C, section (21)(b), states that a grant recipient’s financial management system
shall provide for the following:

   •   Accurate, current, and complete disclosure of the financial results of each
       federally sponsored project or program in accordance with the reporting
       requirements set forth in section C.52. If a federal reporting agency requires
       reporting on an accrual basis from a recipient that maintains its records on other
       than an accrual basis, the recipient shall not be required to establish an accrual
       accounting system. These recipients may develop such accrual data for their
       reports on the basis of an analysis of the documentation on hand.
   •   Records that identify adequately the source and application of funds for federally
       sponsored activities. These records shall contain information pertaining to federal
       awards, authorizations, obligations, unobligated balances, assets, outlays, income,
       and interest.
   •   Effective control over and accountability for all funds, property, and other assets.
       Recipients shall adequately safeguard all such assets and assure that they are used
       solely for authorized purposes.
   •   Comparison of outlays with budget amounts for each award. Whenever
       appropriate, financial information should be related to performance and unit cost
       data.
   •   Written procedures to minimize the time elapsing between the transfer of funds to
       the recipient from the U.S Treasury and the issuance or redemption of checks,
       warrants, or payments by other means for program purposes by the recipient.
   •   Written procedures for determining the reasonableness, allocability, and
       allowability of costs in accordance with the provisions of the applicable federal
       cost principles and the terms and conditions of the award.
   •   Accounting records including cost accounting records that are supported by
       source documentation.




                                        16
